HHS/OIG-Audit--"Audit of the Arkansas Department of Human Services' Medicaid Prescription Drug Rebate Program, (A-06-93-00003)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Arkansas Department of Human Services' Medicaid Prescription
Drug Rebate Program," (A-06-93-00003)
August 2, 1993
Complete
Text of Report is available in PDF format (1.6 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that 72 drug manufacturers had disputed $768,962
of Medicaid drug rebate billings for drug purchases paid by the Arkansas Department
of Human Services' (State agency) for the quarter ended March 31, 1992. A portion
of the disputed amount, $282,205, was the result of a billing error by the State
agency. The remaining $486,757 could be collected if the State agency pursued the
disputes. We recommended actions the State could take to resolve the disputes and
collect the amounts owed.